TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                   Interim Results of the 2010 Filing Season



                                          March 31, 2010

                              Reference Number: 2010-41-047




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


INTERIM RESULTS OF THE 2010 FILING                  taxpayers who may not have claimed credits to
SEASON                                              which they were entitled at the time they filed
                                                    their tax returns. In addition, expanded math
Final Report issued on March 31, 2010               error authority is enabling the IRS to stop the
                                                    erroneous claiming of credits/deductions.
                                                    However, implementing new tax legislation is
Highlights                                          still presenting some challenges for the IRS
                                                    which has resulted in the following:
Highlights of Reference Number: 2010-41-047         •   Increases in error inventories resulting from
to the Internal Revenue Service Commissioner            taxpayers’ errors.
for the Wage and Investment Division.
                                                    •   Delays in completing programming resulting
IMPACT ON TAXPAYERS                                     in the inability to process tax returns with
The filing season is critical for the Internal          First-Time Homebuyer Credit claims until
Revenue Service (IRS) because it is the time            February 16, 2010.
when most individuals file their income tax         •   Payment of $24.2 million in erroneous
returns and contact the IRS if they have                Making Work Pay and Government Retiree
questions about specific tax laws or filing             Credits and the inability to identify and
procedures.                                             prevent erroneous claims at the time tax
WHY TIGTA DID THE AUDIT                                 returns are processed resulting in more than
                                                        $4.7 million in erroneous Plug-in Vehicle
This report presents selected information related       Credits.
to the IRS 2010 Filing Season results as of
either March 5 or March 6, 2010. TIGTA has a        Moreover, errors are hindering the success of
number of ongoing audits related to the             IRS processing of individual tax returns via its
2010 Filing Season. Individual audit reports will   Modernized e-File system.
be issued at the completion of each audit.          In addition, as of March 5, 2010, the IRS had
One of the challenges the IRS confronts each        identified 119,484 tax returns with $733 million
year in processing tax returns is the               being claimed in fraudulent refunds and
implementation of new tax law changes. The          prevented the issuance of $721 million
2010 Filing Season presented additional             (98 percent) of the fraudulent refunds being
challenges for the IRS due to the enactment of      claimed.
two significant tax laws. In addition, the IRS is   Finally, from the beginning of the 2010 Filing
implementing the first phase of the Modernized      Season, taxpayer demand for toll-free telephone
e-File system to process individual tax returns.    assistors has been higher than planned. The
                                                    IRS states that call demand is higher because
WHAT TIGTA FOUND
                                                    more taxpayers than planned are calling to ask
As of March 5, 2010, the IRS received nearly        account-related questions. It has received more
61.3 million tax returns. Of those, 51.6 million    calls from individuals who owe taxes and
were electronically filed (approximately equal to   believes the economic downturn is part of the
this time last year) and nearly 9.7 million were    reason. As of March 6, 2010, the IRS provided
filed on paper (a decrease of almost 20 percent     960,161 services on the Individual Master File
from this time last year). The IRS issued nearly    Balance Due application, which is 243,983
52 million refunds totaling approximately           (34 percent) more than the 716,248 services
$160.2 billion.                                     provided for the same period last year.
The IRS recognized the difficulty taxpayers may     WHAT TIGTA RECOMMENDED
have in claiming new credits and/or deductions.
In an attempt to reduce this difficulty, the IRS    This report was prepared to provide interim
created new forms, schedules, and instructions.     information only. Therefore, no
The IRS also developed programming to identify      recommendations were made in the report.
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 31, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Interim Results of the 2010 Filing Season
                               (Audit # 201040105)

 This report presents selected information related to the Internal Revenue Service (IRS)
 2010 Filing Season 1 results as of either March 5 or March 6, 2010. 2 As part of our Fiscal Year
 2010 Annual Audit Plan, we are conducting a number of ongoing audits that are related to
 specific issues in this report. 3 We will continue to provide IRS management with information on
 any areas of immediate concern throughout our audit process.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act) 4 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 This report was prepared to provide interim information only. Therefore, we made no
 recommendations in the report. However, key IRS management officials reviewed it prior to
 issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report information.
 Please contact me at (202) 622-6510 if you have questions or Michael McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Programs), at (202) 622-5916.




 1
   See Appendix VII for a glossary of terms.
 2
   Results were provided as of either March 5 or March 6, depending on the date the IRS reported the respective data.
 3
   See Appendix IV for a list of ongoing or planned audits relating to areas reported on in the interim report.
 4
   Pub. L. No. 111-5, 123 Stat. 115 (2009).
                              Interim Results of the 2010 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          Processing Tax Returns.................................................................................Page 6
          Implementing Recovery Act and Worker, Homeownership,
          and Business Assistance Legislation Is Presenting Some
          Challenges in the 2010 Filing Season...........................................................Page 14
          More Erroneous Refunds Are Being Detected and Stopped ........................Page 19
          Providing Customer Service .........................................................................Page 21

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 29
          Appendix II – Major Contributors to This Report ........................................Page 32
          Appendix III – Report Distribution List .......................................................Page 33
          Appendix IV – List of Related Treasury Inspector General
          for Tax Administration Reviews Ongoing or Planned .................................Page 34
          Appendix V – List of Tax Forms and Schedules
          Processed Through Modernized e-File .........................................................Page 36
          Appendix VI – List of Tax Products Reviewed............................................Page 38
          Appendix VII – Glossary of Terms ..............................................................Page 40
                       Interim Results of the 2010 Filing Season




                                   Abbreviations

AGI                         Adjusted Gross Income
e-filed; e-file(ing)        Electronically filed; electronic filing
IRS                         Internal Revenue Service
MeF                         Modernized e-File
PIN                         Personal Identification Number
SSN                         Social Security Number
TIGTA                       Treasury Inspector General for Tax Administration
U.S.                        United States
                            Interim Results of the 2010 Filing Season




                                                Background

The filing season 1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most individuals file their income tax returns and contact the IRS if they have questions
about specific tax laws or filing procedures. During
Calendar Year 2010, the IRS expects to receive                 The IRS expects to receive
nearly 138.5 million individual income tax returns.            138.5 million individual tax
The IRS estimates that it will process 41 million                returns, which includes
paper and 97.5 million electronically filed (e-filed)        97.5 million (70 percent) e-filed
                                                                         returns.
tax returns and provide customer service assistance
via telephone, web site, and face-to-face assistance
to millions of taxpayers. It is anticipated that e-filed
tax returns will continue to grow. The total
e-file volumes are projected to increase by about 3.4 percent (3.3 million) for the 2010 Filing
Season. Online e-filed tax returns are expected to increase by 4.3 percent.
One of the challenges the IRS confronts each year in processing tax returns is the
implementation of new tax law changes. Before the filing season begins, the IRS must identify
new tax law and administrative changes, and where possible, revise the various tax forms,
instructions, and publications. It must also reprogram its computer systems to ensure tax returns
are accurately processed. Problems with tax return processing could delay refunds, affect the
accuracy of accounts, and generate incorrect notices.
Two significant tax laws impact the 2010 Filing Season
Two major tax law enactments impact the 2010 Filing Season.
      •    The American Recovery and Reinvestment Act of 2009 (Recovery Act), 2 enacted on
           February 17, 2009, includes 20 individual taxpayer provisions that will cost nearly
           $252 billion. Figure 1 provides a summary of the individual taxpayer provisions included
           in this Act.




1
    See Appendix VII for a glossary of terms.
2
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                              Page 1
                                Interim Results of the 2010 Filing Season




       Figure 1: Summary of Recovery Act Tax Changes for Individual Taxpayers
                                                Cost in     Taxpayers
     Recovery Act Tax Change 3                 Millions 4   Impacted 5                             General Purpose
 Making Work Pay Credit                         $ 116,199    116.3 million     Reduce tax burden for working Americans.
 Increase in Earned Income Tax Credit             $ 4,663     18.2 million     Raise low-income taxpayers above the poverty line.
 Increase in Refundable Portion of Child Tax     $ 14,830     15.6 million     Reduce the financial burden of raising a family.
 Credit
 Increase in Hope Credit 6                       $ 13,907     10.2 million     Help families pay for the costs of higher education.
 Computers Allowed as Education Expense                $6           5,000      Encourage the purchase of computers for students of higher
 for Section 529 Education Saving Accounts                                     learning.
 Increase in First-Time Homebuyer Credit          $ 6,638        1 million     Encourage buying homes to stimulate the weak housing
                                                                               market.
 The First $2,400 of Unemployment                 $ 4,740      7.4 million     Reduce the tax burden of unemployed workers.
 Compensation Is Nontaxable
 Additional Deduction for State Sales Tax on       $1,684      8.5 million     Encourage the purchase of cars, light trucks, motorcycles, and
 Certain Motor Vehicles                                                        motor vehicles with a cost less than $49,500.
 Alternative Minimum Tax Relief (Extended         $69,759       26 million     Protect millions of middle-income taxpayers, who would
 Nonrefundable Personal Credits and the                                        otherwise be subject to the Alternative Minimum Tax.
 Alternative Minimum Tax Exemption)
 Modification of Nonbusiness Energy               $ 2,034      4.3 million     Encourage the purchase of energy efficient property designed
 Property Credit                                                               to reduce heat loss during cold months or heat gain during
                                                                               warm months for use in a principal residence.
 Modification of Residential Energy                 $ 268     1.67 million     Encourage the purchase of renewable sources of energy for
 Efficient Property Credit                                                     use in a home.
 Qualified Plug-In Electric Drive Motor           $ 2,002           8,000      Encourage the purchase of motor vehicles (or the conversion
 Vehicles Credit, Certain Plug-In Electric                                     of motor vehicles to those) that operate on clean renewable
 Vehicles Credit, Conversion Kits, and                                         sources of energy.
 Alternative Motor Vehicle Credit as a
 Personal Credit Against the Alternative
 Minimum Tax
 Increased Exclusion for Employer Provided          $ 192    Less than 8.4     Reduce the consumption of fossil fuels by promoting the use
 Commuter Transit Benefits                                         million     of more environmentally friendly commuter transit options.
 Health Coverage Tax Credit                         $ 457                  7   Assist certified retirees and displaced workers with health
                                                                  50,000
 (12 Sections 1899A – L)                                                       insurance costs.
 $250 Economic Recovery Payment to               $ 14,225         676,000      Reduce financial burden on individuals receiving Social
 Certain Individuals                                                           Security, railroad retirement, disability, or pension benefits.
 $250 Special Credit for Certain                    $ 218         696,000      Reduce tax burden on government retirees receiving a pension
 Government Retirees                                                           but not eligible for Social Security Benefits.
   TOTAL ESTIMATED COST             $251,822
Source: The Recovery Act and Treasury Inspector General for Tax Administration (TIGTA) analysis.



 3
   The Alternative Minimum Tax relief section includes 2 provisions and the Plug-In Vehicle section includes
 4 provisions for a total of 20 provisions.
 4
   Estimated over 11 years (2009 through 2019) by the Joint Committee of Taxation, Estimated Budget Effects of the
 Revenue Provisions Contained in the Conference Agreement for H.R. 1, The “American Recovery and
 Reinvestment Tax Act of 2009” (JCX-19-09, dated February 12, 2009).
 5
   Estimated by the Treasury Inspector General for Tax Administration based on historical statistics from Tax
 Year 2006 and Tax Year 2009 projections.
 6
   This is the American Opportunity Tax Credit.
 7
   This is the number of taxpayers impacted per year.
                                                                                                                                    Page 2
                             Interim Results of the 2010 Filing Season




      •    The Worker, Homeownership, and Business Assistance Act of 2009 8 was enacted on
           November 6, 2009, to help create jobs by providing tax cuts for homebuyers and
           businesses, while providing much-needed support for workers who are still struggling to
           find jobs. The legislation also extends and expands the First-Time Homebuyer Credit
           along with adding anti-fraud measures. The credit of $8,000 is extended for homes
           purchased or under contract by April 30, 2010. In addition, a smaller credit of up to $6,500
           will be available to taxpayers that have lived in their homes for at least 5 years and wish
           to purchase a new home. The new law extends a similar credit until May 2011 for
           members of the uniformed services whose duty takes them overseas. The new law also
           contains important measures to combat tax fraud and protect responsible homebuyers,
           including setting a minimum age for home purchases and requiring documentary proof of
           the purchase in order to receive the credit. Figure 2 shows the changes to the First-Time
           Homebuyer Credit legislation.
             Figure 2: Progression of First-Time Homebuyer Credit Legislation
                                                                                                Worker, Homeownership,
                        Housing and Economic                American Recovery and               and Business Assistance
     Legislation        Recovery Act of 2008 9             Reinvestment Act of 2009                   Act of 2009
Home Purchase        April 9, 2008, through              January 1, 2009, through            December 1, 2009, through
Dates                June 30, 2009.                      November 30, 2009.                  April 30, 2010, with the closing
                                                                                             date of the purchase by
                                                                                             June 30, 2010.
                                                                                             Dates extended for 1 year for
                                                                                             individuals on qualified official
                                                                                             extended duty outside of the
                                                                                             United States (U.S.) for at least
                                                                                             90 days from December 31, 2008,
                                                                                             to May 1, 2010.
Qualifying           Individual (and spouse, if          Individual (and spouse, if          Individual (and spouse, if married)
Individual           married) having no ownership        married) having no ownership        having no ownership interest in a
                     interest in a principal residence   interest in a principal residence   principal residence in the preceding
                     in the preceding 36 months.         in the preceding 36 months.         36 months.
                     Phase-out of the credit begins at   Phase-out of the credit begins at   Phase-out of the credit begins at
                     $75,000-$95,000 for individuals     $75,000-$95,000 for individuals     $125,000-$145,000 for individuals
                     ($150,000-$170,000 for married      ($150,000-$170,000 for married      ($225,000-$245,000 for married
                     filing jointly).                    filing jointly).                    filing jointly).
                     Individual cannot be a              Individual cannot be a              Also includes a Long-Time
                     nonresident alien or related to     nonresident alien or related to     Resident provision if the individual
                     the seller of the home.             the seller of the home.             (and spouse, if married) maintained
                                                                                             the same principal residence for
                                                                                             any 5 consecutive years during the
                                                                                             8 years ending on the date of the
                                                                                             purchase.


8
    Pub. L. No. 111-92, 123 Stat. 2984 (2009).
9
    Pub. L. No. 110-289, 122 Stat. 2654 (2008).
                                                                                                                        Page 3
                           Interim Results of the 2010 Filing Season




                                                                                               Worker, Homeownership,
                      Housing and Economic                 American Recovery and               and Business Assistance
   Legislation         Recovery Act of 2008               Reinvestment Act of 2009                   Act of 2009
Amount of the      10 percent of the purchase price     10 percent of the purchase price    10 percent of the purchase price up
Credit             up to a maximum of $7,500            up to a maximum of $8,000           to a maximum of $8,000 ($4,000,
                   ($3,750, if married filing           ($4,000, if married filing          if married filing separately).
                   separately).                         separately).
                                                                                            Long-Time Resident: Maximum
                                                                                            of $6,500 ($3,250 if married filing
                                                                                            separately).
Recapture of the   Fully recaptured over 15 years       Fully recaptured in year of sale    Fully recaptured in year of sale if
Credit             beginning in the 2010 Tax Year       if home is sold within 3 years of   home is sold within 3 years of
                   (if 2008 claim) or 2011 Tax          purchase.                           purchase.
                   Year (if 2009 claim).
                                                        In the case of an involuntary       In the case of an involuntary
                   If the taxpayer sells the home (or   conversion, recapture is not        conversion, recapture is not
                   the home ceases to be the            accelerated if a new principal      accelerated if a new principal
                   principal residence of the           residence is acquired within a      residence is acquired within a
                   taxpayer or the taxpayer’s           2-year period.                      2-year period.
                   spouse) before the end of the
                   15-year recapture period, any
                   remaining credit repayment
                   amount is immediately due on
                   the tax return for the year in
                   which the home is sold.
                   In the case of an involuntary
                   conversion, recapture is not
                   accelerated if a new principal
                   residence is acquired within a
                   2-year period.
Waiver of the      Death of the taxpayer.               Death of the taxpayer.              Death of the taxpayer.
Recapture of the
Credit             Sale of the home (including          Sale of the home (including         Individuals (and spouses, if
                   through foreclosure) to an           through foreclosure) to an          married) on qualified extended
                   unrelated person with no gain on     unrelated person with no gain on    duty outside the U.S.
                   the sale.                            the sale.
                                                                                            Sale of the home (including
                                                                                            through foreclosure) to an
                                                                                            unrelated person with no gain on
                                                                                            the sale.

Documentation      None.                                None.                               Settlement Statement (HUD-1 or
Requirement                                                                                 equivalent) must be attached.

Source: TIGTA analysis of legislation.

The IRS expanded its Modernized e-File (MeF) System to include individual tax returns
The IRS has used the MeF system to process business tax returns for several years. In Filing
Season 2010, the IRS is implementing the first phase of the MeF system that will process
individual tax returns. The MeF system is replacing the current IRS e-filing system (referred to

                                                                                                                        Page 4
                          Interim Results of the 2010 Filing Season




as Legacy e-file) with a modernized, Internet-based e-file platform. When completed, the MeF
system will provide a single method for filing all IRS tax returns, information returns, forms, and
schedules via the Internet. The MeF system provides real-time processing of tax returns and
extensions that will improve error detection, standardize business rules, and expedite
acknowledgments. The MeF system also allows for attachments in portable document format to
accommodate late legislation and form changes.
This first phase of the MeF system for individual income tax returns includes the U.S. Individual
Income Tax Return (Form 1040), Application for Automatic Extension of Time To File U.S.
Individual Income Tax Return (Form 4868), and 21 forms and schedules related to the
Form 1040 for Tax Year 2009. 10 The IRS began accepting the Form 1040, Form 4868, and the
related forms and schedules through the MeF system for processing on February 17, 2010. The
IRS estimates approximately 72 million of the individual income tax returns filed during the
2010 Filing Season would qualify for the MeF system. However, the IRS is limiting the number
of individual tax returns transmitted through the MeF system to 30 million with a maximum of
241,000 tax returns transmitted per hour. Remaining e-filed tax returns will continue to be
processed through the Legacy e-file system.
This report provides selected information relating to the progress of the 2010 Filing Season. We
have a number of additional audits that have or will be initiated that relate to areas we have
reported on in our interim report. 11 These interim 2010 Filing Season results are being presented
as of either March 5 or March 6, 2010. 12 This review was performed at the Wage and
Investment Division Headquarters in Atlanta, Georgia; the Submission Processing function
offices in Lanham, Maryland, and Cincinnati, Ohio; the Electronic Tax Administration and Refundable
Credits function in Washington, D.C.; the Modernization and Information Technology Services
organization Headquarters in New Carrollton, Maryland; and the Fresno, California;
Atlanta, Georgia; Kansas City, Missouri; Cincinnati, Ohio; and Austin, Texas, Submission
Processing Sites. Later this year, we will issue the 2010 Filing Season report along with other
reports covering many filing season-related topics. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.



10
   See Appendix V for a list of the specific forms and schedules that will be processed through the MeF system.
11
   See Appendix IV for a list of ongoing or planned audits relating to areas reported on in the interim report.
12
   Results were provided as of either March 5 or March 6, depending on the date the IRS reported the respective
data.


                                                                                                           Page 5
                      Interim Results of the 2010 Filing Season




                                 Results of Review

Processing Tax Returns
The IRS recognized the difficulty taxpayers may have in claiming new credits and/or deductions.
In an attempt to reduce this difficulty, the IRS created new forms, schedules, and instructions.
The IRS also developed programming to identify taxpayers who may not have claimed credits to
which they were entitled at the time they filed their tax returns. For example, the IRS computes
the Making Work Pay Credit for every taxpayer when the tax returns are processed and for those
eligible taxpayers who did not claim the credit, the IRS provides the credit. In addition,
expanded math error authority is enabling the IRS to stop the erroneous claiming of
credits/deductions at the time tax returns are processed.
However, implementing new tax legislation is still presenting some challenges for the IRS.
These challenges are resulting in increases in error inventories resulting from taxpayer errors,
payment of erroneous claims, delays in completing programming, and the inability to identify
and prevent erroneous claims at the time tax returns are processed. In addition, errors are
hindering the success of the IRS’ implementation of its MeF system to process individual tax
returns.
As of March 5, 2010, the IRS received nearly 61.3 million tax returns. Of those, 51.6 million
were e-filed (approximately equal to this time last year) and nearly 9.7 million were filed on
paper (a decrease of almost 20 percent from this time last year). In addition, nearly 52 million
refunds totaling approximately $160.2 billion had been issued. Figure 3 presents summary tax
return filing statistics.




                                                                                            Page 6
                           Interim Results of the 2010 Filing Season




           Figure 3: Comparative Filing Season Statistics as of March 5, 2010

 Cumulative Filing Season Data                                 2009 Actual       2010 Actual       % Change

 Individual Income Tax Returns

 Total Returns Received (in thousands)                           63,851           61,287             -4.0%
     Paper Returns Received (in thousands)                       12,058             9,688           -19.7%
     E-filed Returns Received (in thousands)                     51,793           51,600             -0.4%
       Practitioner Prepared                                     33,349           31,880             -4.4%
       Home Computer                                             18,444           19,720             6.9%
       Free File (also included in Home Computer total)           1,935             1,747            -9.7%
       Fillable Forms (also included in Home Computer total)       141                139            -1.6%
 Refunds
  Total Number Issued (in thousands)                             54,638           51,980             -4.9%
  Total $ (in millions)                                        $153,579          $160,186            4.3%
  Average $                                                      $2,811           $3,082             9.6%
  Total Number of Direct Deposits (in thousands)                 44,744           44,032             -1.6%
  Total Direct Deposit $ (in millions)                         $135,614         $143,600             5.9%
Source: IRS 2010 Weekly Filing Season Reports. Totals and percentages may not compute to those presented due to
rounding.

 The e-filing rate is approximately the same so far, but use of Free File continues
 to decrease
 This year marks the 20th year of e-filing. Over 20 years, nearly 800 million tax returns have been
 e-filed. This year, the IRS began receiving e-filed tax returns on January 15, 2010. As of
 March 5, 2010, e-file volumes are about the same as the volumes for the same period in 2009;
 however, there is a 6.9 percent increase in tax returns from taxpayers who e-filed from their
 home computers over last year. The IRS has continued to experience steady growth in e-filed tax
 returns over the past several years. In Calendar Year 2003, of the approximately 130.1 million
 individual income tax returns received by the IRS, 40.7 percent were e-filed. In Calendar
 Year 2009, the percentage of e-filed returns increased to 66.1 percent of the total individual
 income tax returns received.
 The traditional IRS Free File program is a free Federal online tax preparation and e-filing
 program for eligible taxpayers developed through a partnership between the IRS and the Free
 File Alliance LLC (group of private-sector tax preparation companies). The program enables
 eligible taxpayers to use commercial tax software for free. Since the inception of Free File,

                                                                                                       Page 7
                     Interim Results of the 2010 Filing Season




27 million taxpayers have taken advantage of this free program, accessible only through the IRS’
web site, IRS.gov. In addition, for the second year, the IRS and its partners are offering Free
File Fillable Forms, which opens up the Free File Program to nearly everyone, with no income
                                       limitations.
   Not many taxpayers are taking      However, not many taxpayers are taking advantage of
    advantage of the Free File or     these filing options. The Free File Program volumes have
  Free File Fillable Forms options.   decreased by 9.7 percent from this time in 2009, with
                                      Fillable Forms totaling approximately 139,000, a decrease
                                      of 1.6 percent from 2009.

Recovery Act and Worker, Homeownership, and Business Assistance Legislation
The Recovery Act and Worker, Homeownership, and Business Assistance Legislation contain
provisions to assist individual taxpayers. Figure 4 provides the volume and dollar amounts of
these credits/deductions taxpayers claimed as of March 5, 2010.




                                                                                         Page 8
                          Interim Results of the 2010 Filing Season




     Figure 4: Individual Taxpayers Claiming Certain Recovery Act Tax Benefits
                                                     Number of Individual
                 American Recovery                  Taxpayers Claiming the             Amount Claimed
                        and                            Benefit Through                    Through
              Reinvestment Act of 2009                  March 5, 2010                   March 5, 2010
      Making Work Pay Credit and Special                  45.5 million                    $25 billion
      Credit for Government Retirees

      American Opportunity Tax Credit                      4.1 million                    $3.5 billion

      First-Time Homebuyer Credit                         93 thousand 13                 $670 million
                                                                        14
      Additional Deduction for State Sales Tax            1.6 million                     $3 billion
      and Excise Tax on the Purchase of a
      Qualified Motor Vehicle

      Extension and Modification of Credit for            2.3 million*                    $1.7 billion
      Non-Business Energy Property and
      Modification of Credit for Residential
      Energy Efficient Property

      Credit for Certain Plug-in Vehicles                    1,191*                       $1,650,302

      Conversion Kits Credit                                  485*                        $1,145,204
     Source: TIGTA analysis of 2010 Filing Season return volumes through March 5, 2010.
     * These amounts represent only those that were claimed on an e-filed tax return. Claims for these credits
     cannot be identified on paper tax returns.

Taxpayers incorrectly calculating the Making Work Pay Credit and/or not providing
documentation for the First-Time Homebuyer Credit have significantly increased error
workloads. The Error Resolution System is responsible for correcting taxpayer and return
preparer errors, as well as errors made during IRS processing of tax returns. Prior to the start of
the filing season, we alerted the IRS to inaccuracies identified in our review of controls and
corresponding updates of the internal guidelines used by employees working in the IRS Error
Resolution function. We identified a number of inaccuracies in these guidelines relating to new
tax law changes. The inaccuracies involved missing or incorrectly updated information. The
IRS made the corrections we requested.
Taxpayers are incorrectly completing tax forms and/or not providing required documentation
when claiming new tax credits. Specifically, taxpayers are:




13
   Tax returns claiming the First-Time Homebuyer Credit between February 16, 2010, and March 5, 2010.
14
   The Additional Deduction for State Sales Tax and Excise Tax on the Purchase of a Qualified Motor Vehicle can
be claimed on either the Itemized Deductions (Form 1040, Schedule A) or the Standard Deduction for Certain
Filers (Form 1040, Schedule L). The amounts identified on Schedule L were the IRS amounts because the schedule
is not transcribed. The amounts identified on Schedule A were the amounts claimed by the taxpayer.
                                                                                                            Page 9
                      Interim Results of the 2010 Filing Season




   •   Incorrectly completing the new form Making Work Pay and Government Retiree
       Credits (Schedule M). Individuals are incorrectly computing the Making Work Pay
       Credit when also receiving the $250 Economic Recovery Payment. The $250 per person
       Economic Recovery Payment was sent to individuals receiving Social Security retirement
       and disability, and Veterans and Railroad Retirement benefits. Individuals still working
       in 2009 are also eligible for the Making Work Pay Credit of $400 per worker, but must
       reduce the $400 by the $250 payment and calculate their Making Work Pay Credit on
       Schedule M. Since the $250 payment was directly deposited into the same checking
       accounts as their Social Security or other benefit checks, some recipients did not know if
       they received the payment. When the amount on Schedule M does not match IRS
       records, it is identified as an error.
       The IRS sent reminders to tax professionals that the amount on Line 10 of Schedule M
       must match the Economic Recovery Payment received by the taxpayer in 2009 when they
       noticed a number of errors relating to the calculation of this credit. If taxpayers cannot
       recall if they received the payment, they were advised to contact the respective agency to
       confirm whether they received the payment before resubmitting their tax returns claiming
       the Making Work Pay and Government Retiree Credits. However, to date, more than
       1 million e-filed tax returns have been rejected and this issue is included in the top
       5 errors on paper tax returns.
       In response to taxpayer confusion, the IRS is providing a lookup tool, “Did I Receive an
       Economic Recovery Payment?” which gives taxpayers an easy way to determine if they
       received the one-time Economic Recovery Payment. The Internet application became
       available March 17, 2010, on IRS.gov. In addition, beginning March 8, 2010, taxpayers
       can also call a toll-free number to access the telephone application.
   •   Claiming the First-Time Homebuyer Credit but not attaching the required
       documentation to the tax return. In response to
       fraudulent claims received in the 2009 Filing Season,
                                                                      The IRS estimates that
       taxpayers claiming the First-Time Homebuyer Credit          50 percent of the individuals
       are now required to provide documentation such as              claiming the First-Time
       the Settlement Statement (Form HUD-1) to support          Homebuyer Credit will not attach
       the claim for the Credit. In addition, if the taxpayer      the required documentation.
       is claiming the new long-time resident credit, the
       documentation required above is requested along
       with documentation such as the Mortgage Interest
       Statement (Form 1098), property tax records, or homeowner’s insurance records for the
       5 consecutive-year period. The IRS expects a 50 percent correspondence rate based on
       the tax returns submitted to date because the taxpayers failed to submit the settlement
       statement or submitted the wrong documents.
We will continue to monitor IRS efforts to reduce error inventories throughout the filing season.

                                                                                          Page 10
                     Interim Results of the 2010 Filing Season




Errors are hindering the successful implementation of the MeF system for
individual tax returns
Our review of the implementation of the first phase of the MeF individual tax return system has
raised questions as to whether the MeF system will achieve intended results. We have concerns
with the low volume of tax return transmissions being received by the MeF system and the
erroneous rejecting of tax returns. Both problems are negatively affecting the effectiveness of
the MeF system and hindering the IRS’ ability to gather sufficient information to make decisions
regarding future releases of the MeF individual tax return system.
Implementation of the MeF system for individual tax returns is a significant undertaking for the
IRS. The IRS has used the MeF system to process business and corporate tax returns for several
                                     years. However, in comparison, individual tax returns
                                     involve many more issues resulting in more complex
    Tax returns are erroneously
  rejected from the MeF system
                                     programming and system requirements. Recognizing the
  and volumes are significantly      challenges in implementing the MeF system for individual
       lower than expected.          tax returns, the IRS developed a volume plan to manage the
                                     volume of individual tax returns and forms processed
                                     through the MeF system. The volume management plan
limits the number of forms to be processed through the MeF system during the 2010 Filing
Season so that the IRS and the tax return transmitters have an opportunity to observe system
behavior and responses. The IRS intends to use the information it gathers during this filing
season to improve the individual tax return segment of the MeF system for next year with the
ultimate goal to have the MeF system replace the current Legacy e-file system in
Calendar Year 2013.
Lower than expected tax return transmissions
According to the MeF system volume management plan, the IRS planned to allow for processing
only 1.5 million (through the end of February 2010) of the estimated 72 million individual tax
returns that met the criteria for MeF system processing. Transmissions would increase another
4.4 million through the end of March 2010. However, as of March 5, 2010, the IRS has only
processed 98,596 tax returns through the MeF system. The IRS indicated that participation in
the MeF system was voluntary for the 2010 Filing Season with only six transmitters actually
participating in the MeF system as of March 8, 2010. According to the IRS, the volume
management plan was intended to provide volume limits per tax return transmitter to maintain
system performance not to establish expected tax return receipts. Regardless of the purpose of
the volume management plan, low tax return transmissions negatively impact the IRS’ ability to
effectively evaluate MeF system performance.
Tax returns are erroneously rejecting from the MeF system
The success of the MeF system this year has been hindered as a result of erroneously rejected tax
returns. The MeF system must ensure that only those tax returns that satisfy various criteria

                                                                                         Page 11
                            Interim Results of the 2010 Filing Season




designed to ensure tax returns are reasonably accurate are accepted for processing. Any return
that does not satisfy these criteria is returned or rejected to the tax return transmitter. As of
March 5, 2010, 23,902 (24 percent) of the 98,596 tax returns transmitted to the MeF system were
rejected. 15 These tax returns were rejected for 1 or more of 158 of the 434 business rules
(conditions that are checked for those tax returns processed through the MeF system) in place on
February 17, 2010. Our analysis of 30 of these 158 business rules identified concerns with the
accuracy of the MeF system tax return reject process. We alerted the IRS that 19 (63 percent) of
the 30 rules we analyzed appeared to be rejecting tax returns in error or rejecting the returns
without providing accurate explanations. These rules affect a variety of tax issues including the
Making Work Pay Credit, Earned Income Tax Credit, and the validity of Social Security
Numbers (SSN).
The IRS is actively working with us and its internal and external stakeholders to monitor and
evaluate the functioning of the MeF system. The IRS has made a number of corrections and has
provided guidance to the stakeholder community to ensure the MeF system meets current and
future taxpayer needs. We plan to continue our evaluation of the IRS’ implementation of the
MeF system and we plan to issue a separate audit report.

Taxpayers are electing to use the new savings bond option and have increased
use of the split refund option
On September 5, 2009, President Obama announced a new initiative to make it easier for more
than 100 million families to save a portion or all of their tax refunds. Beginning in 2010,
taxpayers have the ability to use their refunds to purchase U.S. Series I Savings Bonds by
requesting them on their tax return. Figure 5 shows the Direct Deposit of Refund to More Than
One Account (Form 8888) and new instructions developed for taxpayers to purchase the savings
bonds.
If their refund is an exact multiple of $50, but not more than $5,000, taxpayers may request the
entire amount be converted into a savings bond by simply filling out the direct deposit section of
their tax return. Taxpayers whose refunds are not exact multiples of $50 must complete a
Form 8888 and identify where any remaining refund should be deposited. Through
March 5, 2010, 22 taxpayers chose to convert their entire refunds in the amount of $20,550 into
savings bonds.
Taxpayers can still elect to have their Federal income tax refunds split and electronically
deposited in up to three accounts (e.g., checking, savings, or Individual Retirement
Arrangement) and may have up to three different U.S. financial institutions, including banks,
brokerage firms, or credit unions. Form 8888 must also be prepared for this option. As of
March 5, 2010, 385,882 taxpayers chose to split their refunds of $1,701,827,906 between
2 or 3 different accounts, and $4,644,750 of this amount went to purchase 13,784 savings bonds.

15
     A tax return may be submitted and rejected by the MeF system more than one time.
                                                                                          Page 12
                      Interim Results of the 2010 Filing Season




The number of taxpayers using the split refund option increased 52 percent over the same time
period in 2009, and the amount of refunds increased by 63 percent.
     Figure 5: Form 8888 and New Instructions on Purchasing Savings Bonds




         Source: Form 8888 (2009).

                                                                                        Page 13
                      Interim Results of the 2010 Filing Season




Implementing Recovery Act and Worker, Homeownership, and
Business Assistance Legislation Is Presenting Some Challenges in
the 2010 Filing Season
Implementing legislation for the 2010 Filing Season required the IRS to update many tax
products and perform extensive programming in an effort to ensure tax returns would be
processed accurately. We identified 71 tax products (33 tax forms, 12 instructions, and
26 publications) that required updating due to legislation. Fifty-nine of the 71 tax products were
updated clearly and accurately in accordance with the new tax law provisions. Of the remaining
12 tax products, 1 was unavailable for review as of March 5, 2010; 9 were incorrect, and an
additional 2 that contained inconsistencies were identified after we had notified the IRS. Of the
9 that were incorrect, 4 were missing needed updates to the tax forms even though the related
instructions had been updated, 4 had incomplete and/or inconsistent instructions, and
1 publication had inaccurate information.
On November 17, 2009, we notified the IRS of our concerns regarding the nine tax products that
contained inconsistencies, were incomplete, and/or were inaccurate. IRS management agreed to
make revisions to six and indicated that they would consider changing the Tax Year 2010
versions for the three that had already gone to print. However, as of March 5, 2010, the IRS had
only revised two and partially revised another of the six tax products. Appendix VI details
specific issues we raised relative to tax products and the IRS actions taken as of March 5, 2010,
to address these concerns.
In addition, the programming and processing of tax returns, including credits and deductions
available as a result of new legislation, are causing challenges for the IRS. These challenges
include:
   •   Inability to track and account for credits claimed for individual tax provisions.
   •   Incorrect programming resulting in the allowance of erroneous claims.
   •   Inadequate controls to identify erroneous claims at the time tax returns are processed.
   •   Delay in processing tax returns with First-Time Homebuyer Credit claims.

Inability to track and account for credits claimed for individual tax provisions
The IRS is unable to track and account for credits claimed for individual tax provisions because
processes have not been implemented to capture information from the following tax forms
included with paper-filed tax returns:
   •   Electric plug-in vehicle credits on Qualified Plug-in Electric and Electric Vehicle Credit
       (Form 8834).
   •   Alternative Motor Vehicle Credit (Form 8910).
                                                                                           Page 14
                      Interim Results of the 2010 Filing Season




   •   Qualified Plug-in Electric Drive Motor Vehicle Credit (Form 8936).
The inability to track and account for the above credits results in the IRS being unable to identify
the number of taxpayers claiming the above credits and the amount of credits claimed. We
alerted IRS management of their inability to track and account for Recovery Act funds. We
recommended that the IRS implement Special Processing Code programming to enable the IRS
to track and account for these credits filed on paper tax returns. Special Processing Codes are
entered on tax returns with certain conditions to alert the computer to a special condition or
computation.
The IRS agreed that it needs the ability to provide transparent reporting of Recovery Act-related
credits and responded that existing and newly created processes will allow it to report on the use
of these credits. Programming will be implemented to add Special Processing Codes to enable
the IRS to track and account for funds allocated as part of tax provisions included in the
Recovery Act for taxpayers claiming Electric Vehicle Credits on paper-filed tax returns. The
implementation date for the programming was originally February 18, 2010, but was delayed to
March 2, 2010. We will continue to monitor the implementation of this programming to ensure
it is properly functioning.

Incorrect programming is resulting in the issuance of erroneous Making Work
Pay and Government Retiree Credits
Our review identified that as of March 5, 2010, the IRS issued erroneous Making Work Pay and
Government Retiree Credits to 84,705 taxpayers totaling $24.2 million. The IRS developed
programming to systemically compute the Making Work Pay and Government Retiree Credits on
tax returns on which the taxpayer appears eligible for the credits. However, errors in this
programming are resulting in the issuance of erroneous credits. Issuance of erroneous credits is
resulting from programs:
   •   Incorrectly computing the Making Work Pay Credit for taxpayers without a valid SSN.
   •   Incorrectly computing the Making Work Pay Credit for taxpayers who indicate they are
       eligible to receive the Government Retiree Credit.
Taxpayers without a valid SSN erroneously received the Making Work Pay Credit
The IRS computes the amount of the Making Work Pay Credit for every Tax Year 2009 tax
return processed. Tax returns in which the IRS’ computation of the Making Work Pay Credit
differs from the taxpayer’s are sent to the Error Resolution function for tax examiner review.
For the tax returns with a discrepancy, tax examiners are required to review the tax returns and
disallow the credit for tax returns filed without a valid SSN. The Recovery Act provides that in




                                                                                            Page 15
                         Interim Results of the 2010 Filing Season




order to be eligible for the Making Work Pay Credit the taxpayer must provide an SSN. In the
case of tax returns filed as married filing jointly, one of the taxpayers must provide an SSN. 16
As of March 5, 2010, we identified 518,262 tax returns in which the taxpayer filed a tax return
without a valid SSN. Tax examiners successfully denied the credit for 477,675 (92 percent) of
these tax returns. However, for the remaining 40,587 (8 percent), tax examiners failed to
correctly disallow the credit which resulted in taxpayers incorrectly receiving more than
$15.9 million in erroneous Making Work Pay Credits. It should be noted that 36,116 of these
taxpayers did not claim the Making Work Pay Credit. IRS programs computed the credit
without taking into account that the taxpayer did not use a valid SSN.
On February 5, 2010, we alerted the IRS of this condition and recommended that the IRS
immediately revise its tax return processing programs to not compute an amount for the Making
Work Pay Credit for taxpayers who do not have a valid SSN and are not married filing jointly
with a taxpayer who does have a valid SSN. IRS management responded that the issue had
previously been identified as one that could be resolved through a programming change and the
change is scheduled to be implemented nationwide on February 25, 2010. We determined this
programming change has been made.
Taxpayers who indicate eligibility for the Government Retiree Credit are erroneously receiving
excess credits
The Recovery Act provided for a special credit for certain government retirees. If a taxpayer
received a pension or annuity from a government entity for work not covered by Social Security,
they are entitled to the $250 Government Retiree Credit. If the taxpayer also had income from
wages or other earned income, they may also be entitled to the Making Work Pay Credit. In both
situations, the Making Work Pay Credit is reduced if the taxpayer received the Economic
Recovery Payment. 17 These credits are calculated and reported using the Schedule M. The IRS
tax return processing system computes the Making Work Pay and Government Retiree Credits
on tax returns using formulas based on several factors. 18 Tax returns in which the IRS’
computation for these credits differs from the taxpayer’s are sent to the Error Resolution function
for tax examiner review.
As of March 5, 2010, we identified more than 44,118 taxpayers receiving $8.3 million in excess
Making Work Pay and Government Retiree Credits because the Making Work Pay and
Government Retiree Credits were being computed incorrectly for tax returns that have a Special
Processing Code “M.” This code is entered on tax returns when Line 11 on Schedule M has

16
   For purposes of this section of the Recovery Act, the SSN does not include a Taxpayer Identification Number
issued by the IRS.
17
   Economic Recovery Payments were sent to taxpayers that received Social Security benefits, Supplemental
Security Income benefits, Railroad Retirement benefits, or Veteran’s Affairs disability or pension benefits.
18
   Factors include wages, self-employment income, Adjusted Gross Income, Economic Recovery Payment
indicators, and Special Processing Codes.
                                                                                                         Page 16
                          Interim Results of the 2010 Filing Season




either a dollar amount or the “Yes” box is checked indicating the taxpayer received a pension or
annuity from a government entity for work not covered by Social Security.
On February 19, 2010, we alerted the IRS of this condition and recommended that the IRS
immediately revise its return processing programs to correctly compute the Making Work Pay
and Government Retiree Credits on returns with a Special Processing Code “M.” IRS
management responded that manual procedures for tax examiners to correct this condition were
issued. In addition, a correction to the programming was requested and the programming should
be complete by April 1, 2010. We will continue to monitor the implementation of this
programming to ensure it is properly functioning.

Controls are not adequate to identify some erroneous claims at the time tax
returns are processed
The ability of the IRS to verify the accuracy of and eligibility for tax benefits and credits before a
tax return has completed processing and prior to release of funds is the most efficient and
effective approach for the IRS. However, in a prior TIGTA review, 19 we reported that the IRS
cannot verify the accuracy of all of the legislated requirements for 13 of the 20 Recovery Act tax
benefits/credits for individual taxpayers before the tax return has completed processing. The IRS
relies on taxpayers to comply with tax laws and provide correct information on their tax returns,
including accurately reporting income and claiming only tax benefits and credits to which they
are entitled. The IRS attempts to weigh the potential burden that providing documentation can
place on taxpayers when implementing provisions.
We are continuing to review processed tax returns to confirm that the IRS is verifying specific
requirements for individual tax provisions that can be validated at the time a tax return is
received. For example, if a legislative provision includes a requirement that the IRS verify
provisions requiring a valid SSN, we are evaluating whether the IRS is verifying the validity of
the SSNs.
As of March 5, 2010, we have identified and reported to the IRS additional verifications that can
be performed to help ensure the validity of benefits/credits being claimed. These include:
     •   Ensuring that the plug-in vehicle credit is not being allowed for nonqualifying vehicles
         based on the vehicle year and in-service date. Our review of 5,265 e-filed tax returns 20
         processed as of March 5, 2010, identified 828 taxpayers claiming more than $1.4 million
         in credits for vehicles with nonqualifying vehicle years and an additional 145 taxpayers
         claiming $616,627 in credits for vehicles with nonqualifying in-service dates.

19
   Evaluation of the Internal Revenue Service’s Capability to Ensure Proper Use of Recovery Act Funds (Reference
Number 2010-41-011, dated November 27, 2009).
20
   As we previously discussed in this report, we are unable to identify paper tax returns with these claims as the IRS
is not transcribing applicable information. The IRS has implemented a Special Processing Code to enable future
identification of paper tax returns.
                                                                                                             Page 17
                          Interim Results of the 2010 Filing Season




     •   Ensuring the plug-in vehicle credit is not allowed for nonqualifying vehicles based on the
         make of the vehicle. Our review of 5,265 e-filed tax returns processed as of
         March 5, 2010, identified 955 taxpayers claiming nearly $2.7 million in credits that do
         not qualify based on the make of the vehicle.
Based on our alerts, the IRS is implementing five new error codes on March 30, 2010, to reject
e-filed tax returns with a vehicle year and/or in-service date that do not meet the tax provision
requirements for the plug-in vehicle credits. In addition, instructions have been issued to tax
examiners to enter a Special Processing Code on paper tax returns with these problems and the
credit will be denied.
However, the IRS did not agree to verify the make of the vehicle during tax return processing
because this would require IRS employees to review the forms for several hundred different
types of qualifying vehicles. It would also have a significant impact on the number of tax returns
that could be reviewed per hour. The IRS also believes this issue is best handled after the tax
return has been processed, and a Compliance Strategy being developed for Recovery Act
provisions will include tests in Fiscal Year 2011 for this issue. We are concerned with the IRS’
decision because these verifications could be performed when Special Processing Codes are
included. Further, the cost to address these tax returns subsequent to tax return processing will
be substantially more than addressing them at the time the tax return is processed. We will
continue to identify erroneous claims based on nonqualifying vehicle make.

Delay in processing tax returns with First-Time Homebuyer Credit claims
The Worker, Homeownership, and Business Assistance Act of 2009 revised, extended, and
expanded the First-Time Homebuyer Credit. This legislation along with the Recovery Act
required the IRS to perform extensive programming changes for the 2010 Filing Season. As a
result, the IRS had to postpone processing tax returns with the First-Time Homebuyer Credit
until February 16, 2010. During the postponement of the processing of these tax returns, the IRS
received 91,911 tax returns nationwide with the First-Time Homebuyer Credit. Initial results
indicate the programs are working properly.
As of March 5, 2010, the IRS processed 93,030 tax returns claiming $670 million in First-Time
Homebuyer Credits. We selected a sample of 123 tax returns with the First-Time Homebuyer
Credit in the Fresno, California; Kansas City, Missouri; and Austin, Texas, Submission
Processing Sites to determine if the tax returns are being processed correctly.21 Characteristics of
these 123 tax returns include:
     •   20 that claimed $8,000 with attached supporting documentation.
     •   60 that claimed $8,000 with no attached supporting documentation.

21
  Judgmental sampling was used to ensure that the original returns could be quickly obtained to evaluate the
accuracy of processing.
                                                                                                          Page 18
                             Interim Results of the 2010 Filing Season




       •   30 that claimed $6,500 with attached supporting documentation.
       •   10 that claimed $6,500 with no attached supporting documentation.
       •   The remaining tax returns reported dispositions, changes in use, or repayments in
           Parts III and IV of the First-Time Homebuyer Credit and Repayment of the Credit
           (Form 5405).
As of March 5, 2010, the IRS processed 19 of the 123 tax returns we sampled.
       •   18 that included supporting documentation for first-time homebuyers and long-time
           residents claiming the credit and were properly allowed.
       •   The remaining tax return did not have supporting documentation for a long-time resident
           claiming the credit and was properly denied.
We will continue to closely monitor the processing of tax returns claiming the credit. In
addition, we have two ongoing reviews of the credit, and one audit planned for later in Fiscal
Year 2010. 22

More Erroneous Refunds Are Being Detected and Stopped
Unscrupulous individuals continue to submit tax returns with false income documents to the IRS
for the sole purpose of receiving a fraudulent refund from the Government. As of
March 5, 2010, the IRS had identified 119,484 tax returns with $733,195,576 being claimed in
fraudulent refunds and prevented the issuance of $720,596,970 (98 percent) of the fraudulent
refunds being claimed. This represents an 82 percent increase in the number of tax returns
identified as of this period last processing year.
Prior to the 2010 Filing Season, preliminary pre-refund reviews of questionable identified tax
returns were performed by the Criminal Investigation Division. On October 11, 2009, the IRS
transferred responsibility for the pre-refund detection activities from the Criminal Investigation
Division to the Wage and Investment Division’s Accounts Management function as part of its
Taxpayer Assurance Program. Figure 6 shows the number of fraudulent tax returns identified by
the IRS for Processing Years 2006 through 2009, as well as the refund amounts that were
claimed and stopped.




22
     See Appendix IV for a listing of ongoing or planned audits relating to areas reported on in the interim report.
                                                                                                                Page 19
                         Interim Results of the 2010 Filing Season




           Figure 6: Fraudulent Returns and Refunds Identified and Stopped
          by the Criminal Investigation Division (Processing Years 2006–2009)
                     Number of                                          Amount of
                     Fraudulent               Number of                 Fraudulent             Amount of
     Processing    Refund Returns         Fraudulent Refund               Refunds              Fraudulent
        Year          Identified           Returns Stopped               Identified         Refunds Stopped
       2006               52,255                   35,523               $271,180,566             $188,715,519
       2007             240,406                   189,915             $1,467,762,110           $1,203,795,853
       2008             380,656                   306,128             $1,959,992,377           $1,683,912,973
      2009              457,369                    369,257           $2,988,945,590            $2,517,094,116
 Source: IRS fraudulent return statistics for Processing Years 2006–2009.

Individual tax returns are sent through the IRS’ Electronic Fraud Detection System and receive a
data-mining score based on the characteristics of the tax return and other data. A private vendor
developed the data-mining score, which is validated and updated before each processing year
based on experience and new information. The higher the data-mining score, the greater the
probability that the tax return might be fraudulent.
For those tax returns meeting a certain score, the return is sent to an IRS employee to screen the
tax return for fraud potential. If a tax return is selected for further verification, the refund is held
until employers or third parties are contacted to verify wage information on the tax return. If the
verification process is not completed within a certain time period, the held refund is
automatically released. In general, if the employee concludes that a tax return contains false
information (e.g., false or inflated wages), the tax return is referred to either the Accounts
Management function or the Examination functions 23 for resolution. Tax returns with refundable
credits, such as the Earned Income Tax Credit, and tax returns for which the refunds were issued
must be sent to the Wage and Investment Division’s Examination function because the law
requires the IRS to follow deficiency procedures before making an assessment in these cases.
In a prior TIGTA review 24 assessing the transfer of pre-refund detection activities from the
Criminal Investigation Division to the Wage and Investment Division, we reported that the IRS
may have underestimated the number of employees needed to screen potentially fraudulent tax
returns, which could result in the IRS not having adequate staff to identify and stop fraudulent


23
   According to the referral procedures, fraudulent refund returns are forwarded to either the Wage and Investment
Division Examination function or the Small Business/Self-Employed Division Examination function. The majority
of fraudulent refund returns are forwarded to the Examination function in the Wage and Investment Division. For
purposes of this report, we will use the generic “Examination functions,” unless we need to refer to a specific
Division for clarification.
24
   Insufficient and Inexperienced Staff Could Reduce the Ability to Detect and Stop Fraudulent Refunds (Reference
Number 2010-40-017, dated January 8, 2010).
                                                                                                         Page 20
                      Interim Results of the 2010 Filing Season




refunds. In addition, we reported that a majority of individuals performing these duties would be
new seasonal employees. For the 2010 Filing Season, the Accounts Management function
reported that 200 (58 percent) of the total 346 employees in the Taxpayer Assurance Program
were seasonal tax examiners. However, the transfer of refund detection activities from the
Criminal Investigation Division to the Accounts Management function and the significant hiring
of seasonal employees have not negatively affected the IRS’ efforts to identify and stop
fraudulent refunds.

Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and Volunteer Program sites, and self-assistance through IRS.gov.

Face-to-face assistance at the Taxpayer Assistance Centers
The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS plans to assist more than 6.3 million taxpayers in Fiscal Year 2010. Between
October 1, 2009, and February 13, 2010, the Taxpayer Assistance Centers had served 2 million
taxpayers, which includes 900,000 taxpayers for the 2010 Filing Season. According to the IRS,
78 percent of the taxpayers who waited to speak to assistors at the 225 Taxpayer Assistance
Centers that track wait time waited fewer than 30 minutes.
Figure 7 shows the number of contacts by product line at the Taxpayer Assistance Centers for
Fiscal Years 2007 through 2010.




                                                                                            Page 21
                          Interim Results of the 2010 Filing Season




               Figure 7: Contacts for Fiscal Years 2007–2010 25 (in millions)

                                                                     Fiscal Year
          Contacts/Product Lines
                                                                                              2010
                                                  2007           2008          2009
                                                                                           Projections
          Tax Accounts Contacts                    3.1            3.2           3.2             3.5
          Forms Contacts                           1.3            1.0             .8              .7
                           26
          Other Contacts                           1.4            1.5           1.5             1.4
          Tax Law Contacts                          .8              .6            .3              .3
          Tax Returns Prepared                      .5              .6            .4              .4

          Totals                                   7.1            6.9           6.2             6.3
        Source: IRS management information reports.

In Fiscal Year 2007, the IRS implemented a standardized quality measurement system to
measure the quality of taxpayer service at its Taxpayer Assistance Centers. Prior to this, the IRS
had used our audit results to measure the accuracy of assistors’ responses to tax law questions.
Our results showed an accuracy rate of 51 percent in Fiscal Year 2002. The IRS reported a
69 percent accuracy rate for Fiscal Year 2008 and a 75 percent accuracy rate for Fiscal
Year 2009. As of February 28, 2010, the IRS had reported a 79 percent accuracy rate for tax law
questions and a 90 percent accuracy rate for tax account questions.

Toll-free telephone assistance
As of March 6, 2010, approximately 41.5 million taxpayers contacted the IRS by calling the
various Customer Account Services function27 toll-free telephone assistance lines 28 seeking help




25
   The Fiscal Year 2007 data are not comparable to prior year data. In Fiscal Year 2007, the IRS changed its method
of counting Taxpayer Assistance Center contacts by capturing the number of services provided rather than the
number of taxpayers assisted. In Fiscal Year 2008, the IRS reverted to capturing the number of taxpayers assisted.
26
   Other Contacts include U.S. Departing Alien Income Tax Statement (Form 2063), date-stamping tax returns
brought in by taxpayers, screening taxpayers for eligibility of service, scheduling return preparation appointments,
helping taxpayers with general information such as addresses and directions to other IRS offices or other Federal
Government agencies, and virtual contacts.
27
   The Director, Customer Account Services, Wage and Investment Division, manages tax law and account
telephone calls through the Joint Operations Center.
28
   The IRS refers to the suite of 22 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
                                                                                                          Page 22
                          Interim Results of the 2010 Filing Season




in understanding the tax law and/or meeting their tax obligations. 29 For the 2010 Filing Season,
the IRS expects increased demand because taxpayers are calling:
     •   To obtain the amount of their Tax Year 2008 Adjusted Gross Income (AGI). During the
         2009 Filing Season, the IRS received approximately 4.8 million calls to obtain prior year
         AGI amounts. These calls were caused by the IRS discontinuing the use of
         U.S. Individual Income Tax Declaration for an IRS e-file Online Return (Form 8453-OL)
         for Tax Year 2008. Now that the Form 8453-OL is obsolete, taxpayers choosing to
         electronically prepare and file their tax returns are required to provide their prior year
         AGI or use a self-selected, five-digit Personal Identification Number (PIN) as their
         signature.
     •   To obtain information about the Recovery Act provisions such as the Making Work Pay
         Credit, First-Time Homebuyer Credit, Money Back for New Vehicle Purchases, and the
         new American Opportunity Education Credit.
In order to reduce calls to assistors requesting a prior year’s AGI, the IRS developed two
methods that taxpayers can use to obtain a PIN to e-file their Tax Year 2009 returns. The PIN
can be used to e-file rather than the prior year’s AGI.
     •   An automated interactive telephone line, 1-866-704-7388. Using their telephone
         keypad, taxpayers enter their SSN, date of birth, and Tax Year 2008 filing status. They
         are then provided a PIN they can use to e-file their Tax Year 2009 returns.
     •   An e-file PIN application. Using a web-based application on IRS.gov, taxpayers enter
         their name, address, date of birth, SSN, and Tax Year 2008 filing status. A PIN is then
         generated that taxpayers can use to e-file their Tax Year 2009 returns.
The IRS also provides automated messages to address the Making Work Pay Credit and other
new tax legislation. Some of the tax provisions addressed on the automated messages are:
     •   Making Work Pay Credit.
     •   First-Time Homebuyer Credit.
     •   Economic Recovery Payments for Social Security, Veteran’s Affairs, and Railroad
         Retirement recipients.
     •   Taxability of unemployment benefits.
     •   Changes to the Earned Income Tax Credit.
     •   Changes to the Child Tax Credit.


29
 Toll-free telephone assistance data presented in this report were taken from available IRS reports through the
week ending March 6, 2010, and comparable periods for prior years.
                                                                                                           Page 23
                      Interim Results of the 2010 Filing Season




   •   Changes to the Higher Education Tax Credit.
   •   Tax deduction for new vehicle purchases.
   •   Extended credits for energy-efficient improvements.

Call demand is higher than expected
From the beginning of the 2010 Filing Season, taxpayer demand for toll-free telephone assistors
has been higher than planned. The IRS states that call demand is higher because more taxpayers
than planned are calling to ask account-related questions. It has received more calls from
individuals who owe taxes and believes the economic downturn is part of the reason. As of
March 6, 2010, the IRS provided 960,161 services on the Individual Master File Balance Due
application, which is 243,983 (34 percent) more than the 716,248 services provided the same
period last year.
Also, the IRS believes many of the unplanned calls relate to taxpayers requesting their prior
year’s AGI. As of March 6, 2010, the IRS estimates
that 22.8 percent of the increase in call demand is
                                                             The IRS estimates that about
related to calls about taxpayers’ prior year AGI. The       22.8 percent of the increase in
IRS projected that the automated PIN telephone line         call demand is related to calls
and e-file PIN application would handle approximately      about taxpayers’ prior year AGI.
85 percent of the requests for a PIN to e-file their tax
returns and only 15 percent would be handled by live
assistors.
Of 7.1 million taxpayers contacting the IRS to obtain an e-file PIN, 6.4 million (90 percent)
attempted to use one of the IRS automated PIN applications. However, the actual success rate
for authentication for the e-file PIN application for the first few weeks of operation was lower
than projected. From January 18 through February 27, 2010, the IRS had approximately
4.1 million attempts on the e-file PIN application, but only approximately 2.3 million taxpayers
(57 percent) obtained PINs. As of February 27, 2010, the automated PIN telephone completions
were 1.6 million. About 425,000 callers (26 percent) were eventually routed to a live assistor.
During the planning for the 2010 Filing Season, the IRS developed a contingency plan if more
taxpayers than planned called to request their prior year AGI or obtain a PIN. In February 2010,
the IRS changed the automated PIN telephone message to ensure only those calls it believed
needed assistor interaction were routed to an assistor. To help reduce caller confusion, the IRS
deployed a new in-queue announcement on the main toll-free telephone line, 1-800-829-1040, to
explain to callers they need either their prior year AGI or a PIN, but not both. The IRS also
increased prior year AGI telephone staffing by redeploying employees from business account
applications and hiring 375 new employees to work correspondence and handle prior year AGI
calls. The IRS stated it used fewer than half of these employees to assist with prior year AGI
telephone calls.

                                                                                          Page 24
                     Interim Results of the 2010 Filing Season




The IRS lowered its key toll-free performance goals for the 2010 Filing Season
and Fiscal Year 2010
The IRS has set its Level of Service goal for the 2010 Filing Season and Fiscal Year 2010 below
80 percent. From 2003 to 2007, the IRS achieved an 80 percent or better Level of Service for the
Filing Season. However, it has set the Fiscal Year 2010 Level of Service at 71 percent. The IRS
plans to answer more calls through automation leaving assistors to answer the more complex
questions, which usually take longer to answer.
As of March 6, 2010, the IRS planned to answer 8.2 million assistor calls (1.9 million fewer
assistor calls during the 2010 Filing Season than the 2009 Filing Season) and planned to achieve
a 72.5 percent Level of Service and 651 second (11 minutes) Average Speed of Answer. IRS
assistors answered 8.6 million calls, achieved a 73.9 percent Level of Service, and achieved a
599 second (10 minutes) Average Speed of Answer.
Figure 8 presents a year-to-date comparison of select toll-free telephone system measures and
service indicators.




                                                                                         Page 25
                           Interim Results of the 2010 Filing Season




           Figure 8: Toll-Free Performance Measures and Service Indicators
                           for the 2007–2010 Filing Seasons 30

                                             2007               2008              2009               2010
                                            Through            Through           Through            Through
                                            March 10           March 8           March 7            March 6


 Level of Service                           82.2%             79.5%              58.8%              73.9%
 Average Speed of Answer
                                               256              327                586               599
 (seconds)
 Automated Calls Answered
                                              12.3             12.4               15.0               16.7
 (millions)
 Customer Account Services
 Assistor Calls Answered                       8.5              8.5               10.1                8.6
 (millions)
 Customer Account Services
 Assistor Services Provided                   10.2              9.9               11.6               10.2
 (millions)


 Service Abandon Rate                        13.1%            16.5%              36.6%              21.0%
 Average Handle Time (seconds)                 587               607               575               648
 Assistor Availability                        6.3%             4.9%               4.7%               5.7%
                     31
 Primary Abandons         (millions)           4.2                4.3              7.0                6.1
                          32
 Secondary Abandons            (millions)      1.5                1.9              3.4                2.6
 Total Blocked Calls (millions)                0.3                0.5              3.9                0.7
Source: IRS Enterprise Telephone Data Warehouse.

One of the IRS’ goals for Fiscal Year 2011 is to bring its telephone Level of Service up to
75 percent. To accomplish this, the IRS has requested a program increase of $11.9 million and
$9 million reallocation from the Taxpayer Advocate Service, the Low Income Tax Clinic
Program, Tax Counseling for the Elderly Program, and the Volunteer Income Tax Assistance
Grant Program to improve the Level of Service from a projected 71 percent in Fiscal Year 2010
to a target goal of 75 percent in Fiscal Year 2011. If the $9 million reallocation is not received,
then the projected target goal for Fiscal Year 2011 would be lowered by 1 percentage point to
74 percent.


30
   The IRS averages its measures throughout the year. It does not weight them.
31
   The IRS refers to calls that disconnect before reaching the queue as primary abandons.
32
   A secondary abandon occurs when a caller gains access into the queue and then hangs up while waiting in the
queue for the next available assistor.
                                                                                                            Page 26
                      Interim Results of the 2010 Filing Season




Tax preparation assistance at Volunteer Program sites
The Volunteer Program plays an increasingly important role in the IRS’ efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
disabled, and limited-English-proficient taxpayers. These taxpayers are frequently involved in
complex family situations that make it difficult to correctly understand and apply tax law.
We plan to visit 39 Volunteer Income Tax Assistance and Tax Counseling for the Elderly sites to
determine if taxpayers receive quality service, including accurate preparation of their individual
income tax returns. We developed scenarios designed to test quality controls and present
volunteers with a wide range of tax law topics that taxpayers may need assistance with when
preparing their tax returns. The scenarios require a determination of Making Work Pay Credit
and Retirement Savings Contribution Credit. In addition, one scenario addresses the tax
deduction for the purchase of a new vehicle.
As of March 5, 2010, we had 21 tax returns prepared with an 86 percent accuracy rate, which is
higher than the 59 percent accuracy rate we reported for the 2009 Filing Season. During last
year’s filing season, we observed that volunteers did not always use the tools and information
available when preparing tax returns. We will report our final results in August 2010. Figure 9
presents comparisons of Volunteer Program activities for the 2007 through 2010 Filing Seasons.
       Figure 9: Year-to-Date Comparisons of the 2007–2010 Filing Seasons
                            Through February 27, 2010

                                                2007          2008       2009     2010
                                               Actual        Actual     Actual   Actual

           Volunteer Return Preparation
                                                 1.3           1.5       1.3      1.2
           (in millions)
           Volunteer E-Filing                  94.4%          96.8%     98.6%    98.9%
          Source: IRS 2007 through 2010 Filing Season Weekly Reports.

The IRS developed a new approach to measuring the quality of tax returns prepared by the
Volunteer Program by forming a Quality Statistical Sample cadre. The cadre reviewers initiated
a statistically valid sample of Volunteer Program sites, the results of which formed a benchmark
of volunteer-prepared tax return accuracy for the 2009 Filing Season. The approach required
that reviewers at each site review randomly selected tax returns, comparing the return
information with supporting documentation, including end-of-year earning statements and
information the taxpayer provided the volunteer during the mandated intake and screening
process. Each year the combined result of all the return review visits is considered the formal
measure of Volunteer Program-prepared tax returns. For the 2009 Filing Season, the cadre
reviews concluded that 78 percent of the tax returns prepared by volunteers were accurate. We
plan to monitor 12 IRS visits and randomly select a sample of the tax returns reviewed by cadre
                                                                                          Page 27
                        Interim Results of the 2010 Filing Season




members to determine the accuracy of the tax returns and the effectiveness of the IRS’ Quality
Statistical Sample cadre review process.

Self-assistance through IRS.gov
IRS.gov continues to be one of the most visited Internet sites in the world, especially during the
filing seasons. As of February 27, 2010, the IRS had reported a 4 percent decrease in the number
of visits to IRS.gov over the same period in the prior filing season. It had also reported an
11.8 percent increase in the number of taxpayers obtaining their refund information online via
the “Where’s My Refund” option found on IRS.gov. Figure 10 shows the year-to-date
comparisons of various IRS.gov activity levels for the 2007 through 2010 Filing Seasons.
       Figure 10: Year-to-Date Comparisons of the 2007–2010 Filing Seasons
                      Through February 27, 2010 (in millions)
                                                                                               % Change
                      2007 Actual        2008 Actual       2009 Actual       2010 Actual
                                                                                               From 2009
IRS.gov Visits            71.7               78.7              103.9             99.8             -4%
“Where’s My
                          17.9               21.4               29.7             33.2            11.8%
Refund?”
Source: The IRS’ WebTrends database and IRS 2007 - 2010 Filing Season Weekly Reports. Totals may not
compute to those presented due to rounding.




                                                                                                   Page 28
                            Interim Results of the 2010 Filing Season




                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide selected information related to the IRS
2010 Filing Season 1 results as of either March 5 or March 6, 2010. To accomplish our objective,
we:
I.         Identified new tax legislation and administrative changes for the 2010 Filing Season that
           will have the greatest potential affect on individual taxpayers.
           A. Reviewed tax forms, instructions, and publications to determine whether they were
              accurately updated with the changes.
           B. Reviewed tax return processing procedures and change documentation to determine
              whether adequate controls were included to accurately process the new tax provisions
              during tax return processing.
II.        Determined the volumes of individual tax returns the IRS is expecting to receive during
           the 2010 Filing Season by obtaining and reviewing the Calendar Year Projections of
           Individual Returns by Major Processing Categories (Document 6187), Fall 2009 Update,
           produced by the IRS Office of Research.
III.       Identified volumes of paper and e-filed returns received through March 5, 2010, from the
           IRS Weekly Filing Season reports that provide a year-to-date comparison of scheduled
           return receipts to actual return receipts. The reports also provide a comparison to 2009
           receipts for the same time period.
IV.        Determined the interim results of the implementation of the MeF individual tax return
           system.
           A. Identified volumes of tax returns transmitted to and accepted by the MeF system for
              processing using the IRS Weekly E-File reports that provide a year-to-date
              comparison of accepted and transmitted tax returns.
           B. Identified the volume of tax returns rejected by the MeF system using the daily MeF
              Error Reject Report to monitor reject volumes as well as tax return data obtained from
              the MeF system and the IRS Individual Return Transaction File.
           C. Evaluated the accuracy of the MeF system tax return reject process using tax return
              data obtained from the MeF system and the IRS Individual Return Transaction File.


1
    See Appendix VII for a glossary of terms.
                                                                                             Page 29
                          Interim Results of the 2010 Filing Season




V.       Determined whether the IRS correctly implemented new tax legislation and
         administrative changes that affected the processing of individual tax returns during the
         2010 Filing Season. We used computer analysis of 100 percent of the Tax Year 2009
         individual income tax returns processed nationally on the Individual Return Transaction
         File between January 1 and March 5, 2010, 2 to identify returns affected by recent tax
         legislation and administrative changes and determined if they were processed correctly.
         We electronically identified:
             1. 45,546,537 tax returns processed claiming the Making Work Pay and Government
                Retiree Credits (Schedule M) through March 5, 2010.
             2. 5,265 e-filed tax returns processed with electric plug-in vehicle credits on
                Qualified Plug-in Electric and Electric Vehicle Credit (Form 8834), Alternative
                Motor Vehicle Credit (Form 8910), and Qualified Plug-in Electric Drive Motor
                Vehicle Credit (Form 8936) through March 5, 2010.
             3. 93,030 tax returns processed with a First-Time Homebuyer Credit and Repayment
                of the Credit (Form 5405) through March 5, 2010. In addition, we selected a
                judgmental sample of 123 tax returns from the Fresno, Kansas City, and Austin
                Submission Processing Sites to determine if they were accurately processed when
                they had supporting documentation or did not have supporting documentation.
                We used judgmental sampling to ensure that the original returns could be quickly
                obtained to evaluate the accuracy of processing.
VI.      Identified the interim results for the Wage and Investment Division’s Accounts
         Management function fraudulent tax return statistics.
         A. Obtained the Questionable Refund Program Workload Comparison Summary Report
            as of March 6, 2010, to identify the interim IRS fraudulent tax return statistics for the
            2010 Filing Season.
         B. Obtained the Questionable Refund Program Workload Comparison Summary Report
            for Processing Year 2009 and reviewed a prior TIGTA report 3 to obtain IRS
            fraudulent tax return statistics to determine the number of erroneous refunds
            identified and stopped for Processing Years 2006 through 2009.




2
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information
Technology validated the data that were extracted, and we verified the data with appropriate documentation.
Judgmental samples were selected and reviewed to ensure that the amounts presented were supported by external
sources. As appropriate, data in the selected data records were compared to the physical tax returns to verify that the
amounts were supported.
3
  Interim Results of the 2009 Filing Season (Reference Number: 2009-40-058, dated March 30, 2009).
                                                                                                             Page 30
                         Interim Results of the 2010 Filing Season




VII.    Identified interim results for the IRS Taxpayer Assistance Center Program.
        A. Obtained from the IRS Field Assistance Office statistics on taxpayers served at the
           Taxpayer Assistance Centers.
        B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various Taxpayer Assistance Center activity levels for the 2009 and
           2010 Filing Seasons, through February 27, 2010.
VIII.   Identified interim results for the IRS Toll-Free Telephone Assistance Program. 4
        A. Reviewed Performance Templates and Executive Level Summary reports from the
           Enterprise Telephone Data Warehouse for results as of March 6, 2010.
        B. Reviewed information relative to actions taken to address taxpayer questions for the
           prior year AGI and Recovery Act provisions from IRS officials.
IX.     Identified interim results for the Volunteer Program by reviewing interim results from
        TIGTA visits to Volunteer Program sites. A total of 22 tax returns had been prepared as
        of March 5, 2010. 5
X.      Identified interim results for IRS self-assistance through IRS.gov from the IRS Weekly
        Filing Season Report of IRS.gov activity levels for the 2009 and 2010 Filing Seasons,
        through February 27, 2010.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2010 Filing Season. We also evaluated the
controls that are incorporated directly into computer applications to help ensure the validity,
completeness, accuracy, and confidentiality of transactions and data during application
processing of tax returns for the 2010 Filing Season.




4
 Toll-Free Access During the 2010 Filing Season (Audit Number 201040017).
5
 Quality of Services at Volunteer Program Sites During the 2010 Filing Season - Followup
(Audit Number 201040018).
                                                                                           Page 31
                    Interim Results of the 2010 Filing Season




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Russell Martin, Director
Deann Baiza, Audit Manager
Lena Dietles, Audit Manager
Ed Gorman, Audit Manager
Paula Johnson, Audit Manager
Tina Parmer, Audit Manager
Wilma Figueroa, Acting Audit Manager
Jean Bell, Senior Auditor
Sharon Buford, Senior Auditor
Tracy K. Harper, Senior Auditor
John Hawkins, Senior Auditor
Patricia Jackson, Senior Auditor
Sharla Robinson, Senior Auditor
Bonnie Shanks, Senior Auditor
Steve Vandigriff, Senior Auditor
Van Warmke, Senior Auditor
Linna Hung, Auditor
Kim McMenamin, Auditor
Robert Carpenter, Information Technology Specialist
Michele Cove, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                    Page 32
                    Interim Results of the 2010 Filing Season




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 33
                        Interim Results of the 2010 Filing Season




                                                                                          Appendix IV

    List of Related Treasury Inspector General for Tax
       Administration Reviews Ongoing or Planned

2010 Filing Season Implementation (Audit Number 201040102)
Audit Objective: Evaluate whether the IRS timely and accurately processes individual paper
and e-filed tax returns during the 2010 Filing Season.
Processing Individual Income Tax Returns Transmitted Through the Modernized E-File
System (Audit Number 200940047)
Audit Objective: Determine whether e-filed individual income tax returns transmitted through
the MeF system are processed timely and accurately in a manner consistent with those tax
returns processed in the Legacy e-file system.
Process to Administer the First-Time Homebuyer Credit (Audit Number 201040101)
Audit Objective: Determine whether the IRS has developed an effective strategy to administer
the First-Time Homebuyer Credit and to identify circumstances that require recapture of the
credit.
Toll-Free Access During the 2010 Filing Season (Audit Number 201040017)
Audit Objective: Evaluate customer service toll-free telephone access during the 2010 Filing
Season. We will also follow up on a prior audit 1 to evaluate the access/service specifically
provided hearing- and speech-impaired taxpayers.
Quality of Services at Volunteer Program Sites During the 2010 Filing Season - Followup
(Audit Number 201040018)
Audit Objective: Determine whether taxpayers visiting Volunteer Program sites receive quality
service, including accurate tax return preparation.




1
 The Internal Revenue Service Has Opportunities to Provide Hearing- and Speech-Impaired Taxpayers With Easier
Access to Toll-Free Telephone Services (Reference Number 2003-30-111, dated May 30, 2003).

                                                                                                    Page 34
                     Interim Results of the 2010 Filing Season




Controls Over Erroneous Claims of the Plug-In Electric Vehicle Credit
(Audit Number 201040131)
Audit Objective: Determine whether the IRS’ controls identify erroneous claims for the Plug-In
Electric Vehicle Credit and prevent fraudulent claims of the Credit. Also assess whether forms,
instructions, and taxpayer education efforts are adequate.
Process to Ensure Repayment of the First-Time Homebuyer Credit (Audit Number 201040107)
Audit Objective: Assess the IRS’ efforts to ensure accurate and timely repayment of the
First-Time Homebuyer Credit.




                                                                                          Page 35
                     Interim Results of the 2010 Filing Season




                                                                             Appendix V

List of Tax Forms and Schedules Processed Through
                 Modernized e-File

Form 1040 – U.S. Individual Income Tax Return
Schedule A – Itemized Deductions
Schedule B – Interest and Ordinary Dividends
Schedule C – Profit or Loss From Business
Schedule D – Capital Gains and Losses
Schedule E – Supplemental Income and Loss
Schedule EIC – Earned Income Credit
Schedule M – Making Work Pay and Government Retiree Credits
Schedule R – Credit for the Elderly or the Disabled
Schedule SE – Self-Employment Tax
Form 1099-R – Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans,
IRAs, Insurance Contracts, etc.
Form 2106 – Employee Business Expenses
Form 2210 – Underpayment of Estimated Tax by Individuals, Estates, and Trusts
Form 2441 – Child and Dependent Care Expenses
Form 4562 – Depreciation and Amortization
Form 4868 – Application of Automatic Extension of Time To File U.S. Individual Income Tax
Return
Form 8283 – Noncash Charitable Contributions
Form 8812 – Additional Child Tax Credit
Form 8829 – Expenses for Business Use of Your Home
Form 8863 – Education Credits (American Opportunity, Hope, and Lifetime Learning Credits)
Form 8880 – Credit for Qualified Retirement Savings Contributions

                                                                                     Page 36
                   Interim Results of the 2010 Filing Season




Form 8888 – Direct Deposit of Refund to More Than One Account
Form W-2 – Wage and Tax Statement




                                                                Page 37
                                Interim Results of the 2010 Filing Season




                                                                                                                      Appendix VI

                                List of Tax Products Reviewed

          Tax                                  Description                             Actions the IRS                             IRS
        Products                           of Exception Issue                          Agreed to Take                         Actions Taken
Draft Residential Energy        The information provided on Page 3 of the         Update the final version with the   The IRS updated the instructions
Credits (Form 5695)             General Instructions under “Joint Occupancy”      recommended changes.                on Page 5 to eliminate the conflict
                                conflicted with the instructions on Page 5 for                                        with the instructions on Page 3.
                                Line 6.
Instructions for Draft          The instructions for these two draft forms        Add text to Form 8910 to point      The Instructions for the final
Alternative Motor Vehicle       referred taxpayers to an Internal Revenue         out that alternative motor          Form 8910 and the instructions in
Credit (Form 8910) and          Code section for the definition of a qualified    vehicles must have four wheels      the Final Form 8936 were both
Draft Qualified Plug-in         plug-in vehicle rather than simply providing      and to review the other             updated to define a qualified
Electric Drive Motor Vehicle    the taxpayer with the definition of a qualified   requirements in the Internal        plug-in electric drive motor vehicle
Credit (Form 8936) including    plug-in electric drive motor vehicle as a         Revenue Code to ensure they         as a four-wheeled vehicle.
the instructions                four-wheeled vehicle.                             are adequately covered in the
                                                                                  instructions.
Draft Qualified Plug-in         These three draft forms did not include a         Place Cautions at the top of the    The Final Form 8834 was not
Electric and Electric Vehicle   calculation step or Caution on the front of the   2009 Forms 8834, 8910, and          updated to include the Caution.
Credit (Form 8834),             form that informed or prevented taxpayers         8936 similar to the Cautions        The IRS stated the caution would
Draft Alternative Motor         from claiming a double benefit for the same       used on Alcohol and Cellulosic      be added in 2010.
Vehicle Credit (Form 8910),     vehicle on more than one of these forms.          Biofuels Credits (Form 6478)
                                                                                  and Biodiesel and Renewable         The Final Form 8910 was not
and                                                                                                                   updated to include the Caution.
Draft Qualified Plug-in                                                           Diesel Fuels Credits
                                                                                  (Form 8864).                        The IRS stated the caution would
Electric Drive Motor Vehicle                                                                                          be added in 2010.
Credit (Form 8936) including
the instructions                                                                                                      The Final Form 8936 was not
                                                                                                                      updated to include the Caution.
                                                                                                                      The IRS stated the caution would
                                                                                                                      be added in 2010.
Highlights of 2008 Tax          Under “2009 Changes” for “New plug-in             Review the tax products and         As of March 5, 2010, the Tax Year
Changes (Publication 553)       electric drive motor vehicle credit” it states,   articles on IRS.gov that refer to   2009 version of Publication 553
(June 2009)                     “Has a gross vehicle weight rating of less than   the gross vehicle weight rating     has not yet been released.
                                14,000 pounds.” Less than 14,000 pounds is        to ensure they are corrected
                                correct for Tax Year 2010. For Tax Year           and changed as needed.              The IRS stated a What’s Hot topic
                                2009, the gross vehicle weight rating may be                                          will be posted on IRS.gov by
                                more than 26,000 pounds.                                                              March 31, 2010.
Instructions for U.S.           In the brief section on the Refundable            Consider updating the 2010          The TIGTA will follow up on this
Individual Income Tax Return    Education Credit (the American Opportunity        versions of these two tax           issue during our tax product review
(Form 1040) and                 Tax Credit or AOTC) filers are referred back      products since the 2009             for the 2011 Filing Season.
Instructions for U.S.           to an earlier section on Education Credit         versions had already gone to
Individual Income Tax Return    where no information on this credit is            print for 2009.
(Form 1040A)                    provided. A reference to the Education
                                Credits (American Opportunity, Hope, and
                                Lifetime Learning Credits) (Form 8863) and
                                instructions where the American Opportunity
                                Tax Credit is fully addressed would be more
                                helpful.

                                                                                                                                   Page 38
                             Interim Results of the 2010 Filing Season




          Tax                              Description                              Actions the IRS                       IRS
        Products                       of Exception Issue                           Agreed to Take                   Actions Taken
Instructions for Form 1040   These three tax products do not inform the        Consider updating the 2010     The TIGTA will follow up on this
and for Form 1040A and       taxpayer that an SSN is required to be eligible   versions of these three tax    issue during our tax product review
Making Work Pay and          to claim the Making Work Pay Credit and           products since the 2009        for the 2011 Filing Season.
Government Retiree Credits   Government Retiree Credit.                        versions had already gone to
(Schedule M)                                                                   print for 2009.




                                                                                                                           Page 39
                   Interim Results of the 2010 Filing Season




                                                                              Appendix VII

                           Glossary of Terms

Adjusted Gross          Calculated after certain adjustments are made but before
Income                  standard or itemized deductions and personal exemptions are
                        subtracted.
Average Speed of        The average number of seconds taxpayers waited in the assistor
Answer                  queue (on hold) before receiving services.
Blocked Call            A telephone call that cannot be connected immediately because
                        either no circuit is available at the time the call arrives (i.e., the
                        taxpayer receives a busy signal) or the system is programmed to
                        block calls from entering the queue when the queue backs up
                        beyond a defined threshold (i.e., the taxpayer receives a recorded
                        announcement to call back at a later time).
Earned Income Tax       A refundable Federal tax credit for low-income working
Credit                  individuals and families.
Electronic Fraud        An automated system used to maximize fraud detection at the
Detection System        time tax returns are filed to eliminate the issuing of questionable
                        refunds.
Enterprise Telephone    The official source for all data related to toll-free telephone
Data Warehouse          system measures and indicators.
Error Resolution        Responsible for correcting taxpayer and return preparer errors, as
System                  well as errors made during IRS processing of tax returns.
Filing Season           The period from January 1 through April 15 when most
                        individual income tax returns are filed.
Fiscal Year             A 12 consecutive month period ending on the last day of any
                        month, except December. The Federal Government’s fiscal year
                        begins on October 1 and ends on September 30.
Free File Program       A free Federal tax preparation and electronic filing program for
                        eligible taxpayers developed through a partnership between the
                        IRS and the Free File Alliance LLC. The Alliance is a group of
                        private-sector tax software companies.



                                                                                          Page 40
                   Interim Results of the 2010 Filing Season




Individual Return       Contains data transcribed from initial input of the original
Transaction File        individual tax returns during return processing.
Level of Service        The primary measure of service to taxpayers. It is the relative
                        success rate of taxpayers who call for live assistance on the IRS
                        toll-free telephone lines.
Making Work Pay         A refundable tax credit of 6.2 percent of wages. The maximum
Credit                  credit is $400 for individuals and $800 for married couples.
Master File             The IRS database that stores various types of taxpayer account
                        information. This database includes individual, business, and
                        employee plans and exempt organizations data.
Processing Year         Calendar year in which the return or document is processed by
                        the IRS.
Questionable Refund     A nationwide, multi-functional program designed to detect and
Program                 stop fraudulent claims for refunds on income tax returns.
Submission              The data processing arm of the IRS. The sites process paper and
Processing Site         electronic submissions, correct errors, and forward data to the
                        Computing Centers for analysis and posting to taxpayer
                        accounts.
Tax Year                The 12-month period for which tax is calculated. For most
                        individual taxpayers, the tax year is synonymous with the
                        calendar year.
Taxpayer Assistance     Walk-in sites where taxpayers can obtain answers to both
Centers                 account and tax law questions, as well as receive assistance in
                        preparing their tax returns.
Volunteer Program       Includes the Volunteer Income Tax Assistance Program, Tax
                        Counseling for the Elderly Program, and Volunteer Income Tax
                        Assistance Grant Program. The Volunteer Program provides
                        free tax assistance to persons with low to moderate income
                        (generally $40,000 and below), the elderly, persons with
                        disabilities, and persons with limited-English proficiency who
                        cannot prepare their own tax returns.




                                                                                       Page 41
